HHS/OIG-Audit--"Audit of Medicare Part B Payments to a Southern California
Podiatrist , (A-09-97-00078)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicare Part B Payments to a Southern California Podiatrist
for the Period
June 1, 1992 through May 31, 1997" (A-09-97-00078)
January 29, 1999
Complete Text of Report is available in PDF format
(463 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
In this final report, we found that the Medical provider was overpaid for services
included in 84 and underpaid for 15 of the 100 sample claims. The 100 claims
included payments for a total of 167 separate services. We determined that 151
services, or 90 percent of the 167 services were either completely unallowable
or partially unallowable for Medicare reimbursement. We estimate based on a
projection of our sample results that the Medical Provider received at least
$683,264 in overpayments for claims for services performed during the period
June 1, 1992 through May 31, 1997.